      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General


                                                                          Washington, D.C. 20201




April 22, 2011

TO:              Donald M. Berwick, M.D.
                 Administrator
                 Centers for Medicare & Medicaid Services

                 /Diann M. Saltman/ for
FROM:            George M. Reeb
                 Acting Deputy Inspector General for Audit Services


SUBJECT:         Review of Medicare Payments Exceeding Charges for Outpatient Services
                 Processed by Noridian Administrative Services, LLC, in Jurisdiction 2 for the
                 Period January 1, 2006, Through June 30, 2009 (A-09-10-02019)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by Noridian Administrative Services, LLC
(Noridian), in Jurisdiction 2. We will issue this report to Noridian within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Lori A. Ahlstrand, Regional
Inspector General for Audit Services, Region IX, at (415) 437-8360 or through email at
Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-10-02019.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

April 28, 2011

Report Number: A-09-10-02019

Mr. Michael Hamerlik
President and Chief Executive Officer
Noridian Administrative Services, LLC
900 42nd Street South
Fargo, ND 58103

Dear Mr. Hamerlik:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by Noridian Administrative Services, LLC, in Jurisdiction 2 for
the Period January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact
Lorrali Herrera, Senior Auditor, at (619) 557-6131, extension 105, or through email at
Lorrali.Herrera@oig.hhs.gov or contact Alice Norwood, Audit Manager, at (415) 437-8360 or
through email at Alice.Norwood@oig.hhs.gov. Please refer to report number A-09-10-02019 in
all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Hamerlik


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF MEDICARE
PAYMENTS EXCEEDING CHARGES
  FOR OUTPATIENT SERVICES
   PROCESSED BY NORIDIAN
ADMINISTRATIVE SERVICES, LLC,
      IN JURISDICTION 2
       FOR THE PERIOD
  JANUARY 1, 2006, THROUGH
        JUNE 30, 2009
                      Daniel R. Levinson
                       Inspector General

                          April 2011
                        A-09-10-02019
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

During our audit period (January 1, 2006, through June 30, 2009), Noridian Administrative
Services, LLC (Noridian), was the Medicare contractor for Jurisdiction 2 in four States. For
Jurisdiction 2, Noridian processed approximately 89.7 million line items for outpatient services
during this period, of which 1,340 line items had (1) a Medicare line payment amount that
exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of service. (A
single Medicare claim from a provider typically includes more than one line item. In this audit,
we did not review entire claims; rather, we reviewed specific line items within the claims that
met these two criteria. Because the terms “payments” and “charges” are generally applied to
claims, we will use “line payment amounts” and “line billed charges.”)

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 1,340 selected line items for which Noridian made Medicare payments to providers for
outpatient services during our audit period, 359 were correct. Providers refunded overpayments
on 51 line items totaling $478,019 before our fieldwork. The 930 remaining line items were



                                                i
incorrect and included overpayments totaling $6,225,260, which the providers had not refunded
by the beginning of our audit.

Of the 930 incorrect line items:

   •    Providers reported incorrect units of service on 656 line items, resulting in overpayments
        totaling $5,074,746.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 148 line
        items, resulting in overpayments totaling $587,165.

   •    Providers billed for unallowable services on 97 line items, resulting in overpayments
        totaling $295,619.

   •    Providers reported a combination of incorrect units of service and incorrect HCPCS
        codes on 17 line items, resulting in overpayments totaling $136,686.

   •    Providers did not provide supporting documentation for 12 line items, resulting in
        overpayments totaling $131,044.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Noridian:

    •   recover the $6,225,260 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations.
Noridian provided information on actions that it had taken or planned to take to address the
recommendations. Noridian’s comments are included in their entirety as the Appendix.




                                                   ii
                                                   TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        Noridian Administrative Services, LLC ......................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology .................................................................................................................. 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 4
        Incorrect Number of Units of Service ............................................................................. 4
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Unallowable Services...................................................................................................... 5
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes ............................... 5
        Unsupported Services ..................................................................................................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 6

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS ................................. 6

APPENDIX

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                     iii
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.



                                                          1
Noridian Administrative Services, LLC

During our audit period (January 1, 2006, through June 30, 2009), Noridian Administrative
Services, LLC (Noridian), was the Medicare contractor for Jurisdiction 2 in four States: Alaska,
Idaho, Oregon, and Washington. 3 For Jurisdiction 2, Noridian processed approximately
89.7 million line items for outpatient services during this period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to providers for outpatient services were correct.

Scope

Of the approximately 89.7 million line items for outpatient services that Noridian processed
during the period January 1, 2006, through June 30, 2009, we reviewed 1,340 line items that had
(1) a Medicare line payment amount that exceeded the line billed charge amount by at least
$1,000 and (2) 3 or more units of service. 4

We limited our review of Noridian’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

Our fieldwork included contacting Noridian, in Fargo, North Dakota, and the 73 providers that
received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    used CMS’s National Claims History file to identify outpatient line items in which
         (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
         $1,000 and (2) the line item had 3 or more units of service;

3
 Because there was no MAC for Jurisdiction 2 during our audit period, Noridian processed the Jurisdiction 2
workload under its legacy Medicare contract.
4
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”


                                                          2
   •   identified 1,340 line items totaling approximately $8.1 million that Medicare paid to
       73 providers;

   •   contacted the 73 providers that received Medicare payments associated with the selected
       line items to determine whether the information conveyed in the selected line items was
       correct and, if not, why the information was incorrect;

   •   reviewed documentation that the providers furnished to verify whether each selected line
       item was billed correctly;

   •   coordinated the calculation of overpayments with Noridian; and

   •   discussed the results of our review with Noridian on January 13, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the 1,340 selected line items for which Noridian made Medicare payments to providers for
outpatient services during our audit period, 359 were correct. Providers refunded overpayments
on 51 line items totaling $478,019 before our fieldwork. The 930 remaining line items were
incorrect and included overpayments totaling $6,225,260, which the providers had not refunded
by the beginning of our audit.

Of the 930 incorrect line items:

   •   Providers reported incorrect units of service on 656 line items, resulting in overpayments
       totaling $5,074,746.

   •   Providers used HCPCS codes that did not reflect the procedures performed on 148 line
       items, resulting in overpayments totaling $587,165.

   •   Providers billed for unallowable services on 97 line items, resulting in overpayments
       totaling $295,619.

   •   Providers reported a combination of incorrect units of service and incorrect HCPCS
       codes on 17 line items, resulting in overpayments totaling $136,686.

   •   Providers did not provide supporting documentation for 12 line items, resulting in
       overpayments totaling $131,044.




                                                3
The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23, section
20.3, states: “… providers must use HCPCS codes … for most outpatient services.” Chapter 25,
section 75.5, of the Manual states: “… when HCPCS codes are required for services, the units
are equal to the number of times the procedure/service being reported was performed.” 5 If the
provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 656 line items, resulting in overpayments totaling
$5,074,746. The following examples illustrate the incorrect units of service:

    •   One provider billed Medicare for incorrect service units on 37 line items. Rather than
        billing between 28 and 250 service units (the correct range for the HCPCS codes
        associated with these line items), the provider billed between 280 and 5,000 service units.
        According to the provider, these errors occurred because the provider’s computer
        software was programmed incorrectly. As a result of these errors, Noridian paid the
        provider $774,062 when it should have paid $61,296, an overpayment of $712,766.

    •   Another provider billed Medicare for incorrect service units on 25 line items. Rather
        than billing between 6 and 35 service units (the correct range for the HCPCS codes
        associated with these line items), the provider billed between 55 and 1,225 service units.
        According to the provider, the incorrect billing occurred because of clerical errors. As a


5
 Before CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located in chapter 25, section 60.5, of the Manual.


                                                      4
           result of these errors, Noridian paid the provider $592,644 when it should have paid
           $15,828, an overpayment of $576,816.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 148 line items,
resulting in overpayments totaling $587,165. For example, a provider billed Medicare for
86 line items using the HCPCS code for an all-lipid injection of doxorubicin HCL, a cancer
medication, rather than using the correct HCPCS code for a nonlipid injection of doxorubicin
HCL, the procedure actually performed. These errors occurred because the provider’s
chargemaster 6 was incorrect. As a result of these errors, Noridian paid the provider $267,707
when it should have paid $1,194, an overpayment of $266,513.

Unallowable Services

Providers incorrectly billed Medicare for 97 line items for which the services provided were not
allowable for Medicare reimbursement, resulting in overpayments totaling $295,619. The
following examples illustrate the unallowable services:

       •   One provider billed Medicare for 50 line items for injections of Avastin, a cancer
           medication. According to the provider, these injections were part of a clinical trial and
           should not have been billed to Medicare. The provider stated that these errors occurred
           because of insufficient billing system edits. As a result of these errors, Noridian paid the
           provider $76,653 when it should have paid $0, an overpayment of $76,653.

       •   Another provider billed Medicare for 13 line items that were unrelated to outpatient
           services. Specifically, the provider incorrectly billed Medicare outpatient services for
           dental procedures that are not covered by Medicare. For one such procedure, the
           provider billed for the removal of teeth to prepare the mouth for dentures, which is not a
           covered procedure according to the Medicare Benefit Policy Manual (Pub. No. 100-02,
           chapter 15, section 150). As a result of these errors, Noridian paid the provider $74,348
           when it should have paid $0, an overpayment of $74,348.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Seven providers reported a combination of incorrect units of service and incorrect HCPCS codes
on 17 line items. According to the providers, the incorrect billing was due primarily to clerical
errors. As a result of these errors, Noridian paid these providers $147,421 when it should have
paid $10,735, an overpayment of $136,686.




6
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.


                                                           5
Unsupported Services

Ten providers billed Medicare for 12 line items for which the providers did not provide
supporting documentation. The providers agreed to cancel the line items and refund the
combined $131,044 overpayments that they received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on providers to notify the Medicare contractors of incorrect payments and on
beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 7

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that Noridian:

     •   recover the $6,225,260 in identified overpayments,

     •   implement system edits that identify line item payments that exceed billed charges by a
         prescribed amount, and

     •   use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations.
Noridian provided information on actions that it had taken or planned to take to address the
recommendations. Noridian’s comments are included in their entirety as the Appendix.




7
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         6
APPENDIX
                                                                                                                        Page 1 0[4



APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS 





   NORIDIAN®                                                                        M':-d>~',:, e O!JS',,~tJ')ns
                                                                                    ,){;:-_, It )'W   s:_~,:,,:,t   Sr" :'l




      February 25,2011

      Lori A. Ahlstrand
      Regional Inspector General for Audit Services
      Office of Inspector General
      Region IX
      90 - 7"' Street, Suite 3-650
      San Francisco, CA 94103

      RE: Report Number A-09-10-02019

      Dear Ms Ahlstrand:

      Thank you for the opportunity to respond to the draft report of the U.S. Department of
      Health & Human Services, Office of Inspector General (OIG) dated January 26, 2011,
      entitled, Review ofMedicare Payments Exceeding Charges for Outpatient Services
      Processed by Noridian Administrative Services, LLC, in Jurisdiction 2 for the Period of
      January 1, 2006, Through June 30, 2009. We concur with the recommendations made by
      the OIG. Noridian Administrative Services, LLC (NAS) has provided our responses to
      these recommendations within the contents of tlris letter. The course of action that NAS
      has planned will be an ongoing effort due to the extent of activities planned and the time
      that can be associated with the research, development, testing and implementation of
      certain initiatives.

      NAS researched the claims information and details provided by the OIG and has
      determined there are several courses of action we will perform to assist in reducing future
      overpayments. Approximately 23% of the CPTIHCPC codes identified in tlris audit are
      now included on the published Medical Unlikely Edits (MUE) listing and have unit of
      service limits. These MUE's are also edits in the standard Part A system, FISS, and
      should assist in minimizing unit of service overpayments in the future. For those codes
      not included in either the published or non-published MUE listings, NAS will explain our
      initiatives/plans to reduce future overpayments in the response below. Reviewing the list
      of providers included in this audit, NAS does recognize some providers are currently
      being educated for various reasons identified in their billings. The audit conducted by the
      OIG gives NAS further evidence/information of billing issues that will be reviewed and
      considered for recommendation to the Program Safeguard Contractor (PSC) when and if
      appropriate.
                                                                                             Page 2 0[4




It is important to note that future overpayments may still be possible even after NAS has
completed our plans of action due to the fact that Medicare contractors are not funded to
perfann 100% complex review of claims. Without a comparison ofmedical records and
coding on 100% of claims billed, there is the potential for overpayments (and
underpayments) resulting from billing incorrect procedure codes, units of service and
other claims payment indicators. NAS will do all we can within our scope and funding to
reduce overpayments. An important tool or step in this process that NAS has considered
is to make referrals to the Program Safeguard Contractor (PSC), Recover Audit
Contractors (RAC) and CMS as a method ofbusiness collaboration.

OIG RECOMMENDATIONS:

   • 	 Recover the $6,225,260 in identified overpayments
             NAS Response: NAS concurs with the recommendation that all
             overpayments identified are to be collected. NAS has completed
             collections of these overpayments either by provider refund check or
             adjustment made by the provider. No further action is required.


   • 	 Implement system edits that review line item payments that exceed billed
       cbarges by a prescribed amount
             NAS Response: NAS has established an Outpatient Assessment Task
             Force (OATF) of seasoned Medicare staff that will be reviewing the
             claims data from the OlO's audit. Team Members include: Contractor
             Medical Director (CMD), CMD Assistant (RN), Medical Review Manager
             (RN) and/or Team Leader (RN), Part A Claims Manager and/or Team
             Leader and Part A Systems Manager and/or Team Leader and others as
             needed. The OATF will perfonn the following activities and as much as
             possible utilize the already established (and funded) processes and
             procedures within the current NAS Medicare infrastructure:
                 • 	 NAS will write a User Project Action Request (PAR) and submit
                     to the data center to assess the feasibility of creating a national
                     FISS edit that would address line item payments exceeding billed
                     charges. If the request is not a feasible option NAS will evaluate if
                     user controlled edits in FISS would be a viable option. NAS'
                     preference would be to have the FISS maintainer and CMS support
                     to implement a national system edit in FISS.
                 • 	 To establish a priority ranking for implementing potential actions,
                     NAS will utilize the specific data from this audit for the
                     assessment of:
                         • 	 overpayments dollars per claim (highest to lowest)
                         • 	 units billed (rughest to lowest)
                         • 	 most frequently billed codes (highest to lowest)
                         • 	 specific providers included in this audit (highest claim
                             volume to lowest)
                                                                                            Page 3 0[4




               • 	 Perfonn a review ofunallowable services and detennine if a User
                   PAR should be created to submit to the data center for a standard
                   system edit. This would be the best solution for many ofthese
                   codes so the correction would be applicable for al1 Part A
                   Medicare contractors. If not possible, consider local edits as
                   appropriate.
               • 	 Perfonn a review ofunit of services allowed and determine if a
                   User PAR should be created to submit to the data center for a
                   standard system edit. If not possible, consider local edits as
                   appropriate. NAS would consider returning the claim to the
                   provider (RTP) to verify ifthe units billed are accurate.
               • 	 As appropriate, the CMD will assess if a new Local Coverage
                   Detennination (LCD) is warranted or changes to any existing
                   LCD's are needed.
               • 	 Assess high overpayment codes in addition to the annual Medical
                   Review Strategy (which would result in claims to be reviewed at
                   the complex level by Medical Review nurses)
               • 	 Refer recommendations for post-pay reviews to the Recovery
                   Audit Contractor (RAC) per the new CMS direction from TDL
                   dated 2117/11.
               • 	 As appropriate refer recommendations to the PSC.
               • 	 NAS' two CMD's are members ofthe National MUE workgroup
                   committee and as appropriate will elevate problematic codes to the
                   committee for review and consideration of new MUE edits.


• 	 Use tbe results oftbis audit in its provider education activities
           NAS Response: NAS has several plans of action that will include various
           methods of provider education. The OATF will update the Provider
           Outreach and Education team with specific education topics as they relate
           to the data assessed. NAS plans the following provider education
           activities:
               • 	 Develop provider training on the 'hot spots' identified through
                    assessments.
               • 	 Develop tools/resources on our website as a resource for providers.
               • 	 30 minute online provider education sessions (as applicable).
               • 	 Provider education articles that will be distributed via the list-serv
                    and posted to the NAS website.
               • 	 Providers with an error rate of $5,000 and above will be educated
                    on an individual basis and the provider will be required to submit a
                    corrective action plan to NAS.
                                                                                           Page 4 0[4




Please advise if additional information or further clarification is needed on any of our
response. Please contact Paul O'Donnell, Medicare Operations Vice President, at (701)
277·2401 or through email atPaul.O·Donnell@noridian.com


Sincerely,

/s/ PaulO 'Donnell

Paul O'Donnell
Vice President
Noridian Administrative Services, LLC
